 _"...wets.
 -""""<,,,. DEPARTMENT
             DEPARTMENT OF
                        OF HEALm
                           HEALm&& HUMN
                                   HUMANSERVICES
                                         SERVICES                                                         OFFCE
                                                                                                          OFFICEOF
                                                                                                                OFINSPECTOR
                                                                                                                   INSPECTOR GENERAL
                                                                                                                             GENERAL

('(~
   -l
y+~~~}\.-
y+~~~~\.
                                                                                                           Offce  of Audit
                                                                                                           Officeof  Audit Services,
                                                                                                           Public Ledger
                                                                                                           Public
                                                                                                                                     RegionILL

                                                                                                                           Servce, Region
                                                                                                                          Building,Suite
                                                                                                                   Leger Buildi,
                                                                                                           150 S. Independence
                                                                                                                  Independence Mall
                                                                                                                                             III
                                                                                                                                     Suite 316
                                                                                                                               Mal West
                                                                                                                                    West
                                                                                                                                           316

                                                                                                           Philadelphia,
                                                                                                           Philadelphia,PA
                                                                                                                         PA19106-3499
                                                                                                                            19106-3499


                                                                 FEB 1122009
                                                                 FEB   2 2009

            Report Number: A-03-07-00016
            Report         A-03-07-00016

            Mr. E. James Bylotas
            Director, Quality & Performance Management
            Highmark Medicare Services
            1800 Center Street
            Camp Hill, Pennsylvania   17089
                        Pennsylvana 17089


            Dear Mr. Bylotas:

            Enclosed isis the
            Enclosed            theU.S.
                                      U.S.Department
                                               Deparent ofofHealth   Healthand andHuman
                                                                                    Human Services
                                                                                            Services (HHS),
                                                                                                       (HHS), Office
                                                                                                                 Offce ofofInspector
                                                                                                                            Inspector
            General (OIG), final report entitled "Review                         of High-Dollar   Payments     for Pennsylvania
                                                                      "Review of High-Dollar Payments for Pennsylvana
            Medicare Part   Par BBClaims
                                       ClaimsProcessed
                                                    Processedby     byHighmark
                                                                         Highmark Medicare
                                                                                     Medicare Services
                                                                                                 Services for
                                                                                                           for the
                                                                                                                the Period January 1,1,
            2003,     Through        December         31,2005."
            2003, Though December 31,2005." We wil forward a copy of 
   We   will forward  a copy  of ths
                                                                                                       this report
                                                                                                             report to
                                                                                                                     to the
                                                                                                                        the HHS  action
            official
            official     noted
                     noted on 
   on the following
                                             following page   page for for review
                                                                            reviewand
                                                                                    and any
                                                                                        any action
                                                                                             action deemed
                                                                                                    deemed necessary.
                                                                                                               necessar.

            The HHS HHS action
                             action official
                                         official will
                                                     wil make final    final determination
                                                                               determnation as to actions
                                                                                                    actions taken onall
                                                                                                            taen on     all matters
                                                                                                                             matters reported.
                                                                                                                                     reported.
            We     request
            We request that you that   you
                                 respond      respond
                                         to ths             to 30this
                                                official withn     days official    within
                                                                        from the date of 
 30 days from the date of this
                                                                                                                    ths     letter. Your
                                                                                                                            letter.
            response should present any.comments    anyeomments or           or additional
                                                                                  additional information
                                                                                             information that you believe may have a
            bearing on the
            bearng            the final determnation.
                                             determination.

            Pursuant to
                      to the
                         the Freedom
                             Freedom ofof Information         U.S.c. §§552,
                                          Inormation Act, 5 U.S.c.        552, OIG
                                                                               OIG reports
                                                                                     reports generally are made
            available to the public to the extent that information in the report is not subject to exemptions in
            the Act. Accordingly, ths
                Act. Accordingly,   thisreport
                                         reportwil
                                               willbebeposted
                                                        postedononthe
                                                                    theInternet
                                                                        Internetatathttp://oig.hhs.g:ov.
                                                                                     http://oig.hhs.gov.

        If you
           you have any questions
                        questions or comments
                                     comments about
                                               about this
                                                      ths report, please do not hesitate to call me,
                                                                                                 me, or
        contact Bernard Siegel, Audit Manager, at (215)  861-4484   or through
                        Siegel, Audit Manager, at (215) 861-4484 or though     e-mail at
        Bernard.Siegel@oig.hhs.gov.
        Bernard.Siegeicmoig.hhs.gov. Please refer to report number A-03-07-00016 in all
        correspondence.

                                                                        Sincerely,


                                                                       lfP~
                                                                        Stephen
                                                                        Stephen Virbitsky
                                                                        Regional Inspector General
                                                                        Regional
                                                                          for Audit Services
                                                                          for


        Enclosure
        Enclosure
Page 2 - Mr.
         Mr. E.
             E. James
                James Bylotas
                      Bylotas


Direct Reply to HHS Action Official:
                           Offcial:

Nanette Foster
         Foster Reilly,
                Reily, Consortium
                        Consortum Admnistrator
                                   Administrator
Consortiumfor
Consortum   forFinancial
                FinancialManagement
                          Management &   Fee for
                                       & Fee for Service
                                                 Service Operations
Centers for Medicare & & Medicaid Services
           th
601 East 12 Street,
    East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
 

             OFFICE OF 

        INSPECTOR GENERAL 





   REVIEW OF HIGH-DOLLAR 

 PAYMENTS FOR PENNSYLVANIA 

   MEDICARE PART B CLAIMS 

   PROCESSED BY HIGHMARK 

 MEDICARE SERVICES FOR THE 

   PERIOD JANUARY 1, 2003,
 

 THROUGH DECEMBER 31, 2005 





                     Daniel R. Levinson
 

                      Inspector General 


                       February 2009
 

                       A-03-07-00016
 

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C.§ 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS), which administers the program,
contracts with carriers to process and pay Medicare Part B claims submitted by physicians and
medical suppliers (providers). CMS guidance requires providers to bill accurately and to report
units of service as the number of times that a service or procedure was performed.

Carriers currently use the Medicare Multi-Carrier Claims System and CMS’s Common Working
File to process Part B claims. These systems can detect certain improper payments during
prepayment validation.

Highmark Medicare Services (Highmark), a subsidiary of Highmark, Incorporated, was the
Medicare Part B carrier for Pennsylvania. During calendar years (CY) 2003–05, Highmark
processed more than 101 million claims as the Part B carrier, 801 of which resulted in payments
of $10,000 or more (high-dollar payments).

OBJECTIVE

Our objective was to determine whether Highmark’s high-dollar payments as the Medicare
Part B carrier for Pennsylvania were appropriate.

SUMMARY OF FINDING

Two hundred sixty-two of 311 sampled high-dollar payments Highmark made as the carrier for
Pennsylvania were appropriate, and Highmark was reviewing 1 additional payment at the time of
our audit. However, Highmark overpaid $482,295 for 48 payments to 16 providers. Seven
providers refunded $340,823 for 27 of the overpayments prior to our audit. Many of these
overpayments were related to manually processed claims for hemophilia drugs. Seven providers
refunded $100,896 in overpayments for 16 of the overpayments as a result of our audit. (One of
these seven providers also refunded overpayments prior to the audit.) Three providers had not
refunded $40,576 in overpayments for five claims at the time of our audit.

Highmark made the overpayments because 13 providers billed Highmark for the incorrect
number of units of service and one of these providers billed Highmark for the wrong services for
the administration of drugs. Also, Highmark used the incorrect quantity when it manually
calculated the payment for certain drugs on 22 claims and used incorrect rates to pay for drugs
on 2 claims. In addition, the Medicare claim processing systems did not have sufficient edits in
place during CYs 2003–05 to detect and prevent payments for these types of erroneous claims.




                                                i
RECOMMENDATIONS

We recommend that Highmark:

   •	 recover the $40,576 in overpayments and

   •	 consider identifying and recovering any additional overpayments made to providers for
      high-dollar Part B claims paid after CY 2005.

HIGHMARK MEDICARE SERVICES COMMENTS

In comments on our draft report (Appendix B), Highmark stated that it concurred with our first
recommendation and initiated activity to recover the $40,576 in identified overpayments but that
it did not believe it necessary to implement a special review of high dollar claims at this time.




                                                ii
                                                    TABLE OF CONTENTS
 


                                                                                                                                   Page


INTRODUCTION........................................................................................................................1 


          BACKGROUND ...............................................................................................................1 

              Medicare Part B Carriers .......................................................................................1 

              Highmark Medicare Services.................................................................................1                        

              “Medically Unlikely Edits”....................................................................................1                     


          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................2 

               Objective ...............................................................................................................2         

               Scope......................................................................................................................2       

               Methodology ..........................................................................................................2            


FINDINGS AND RECOMMENDATIONS ..............................................................................3 


          MEDICARE REQUIREMENTS.......................................................................................3                       


          INAPPROPRIATE HIGH-DOLLAR PAYMENTS .........................................................4 

               Excessive Units or Incorrect Services Billed.........................................................4 

               Incorrect Quantities or Payment Rates ..................................................................4 


          STATUS OF OVERPAYMENTS.....................................................................................5 


          INSUFFICIENT PREPAYMENT CONTROLS...............................................................5 


          RECOMMENDATIONS...................................................................................................5                     


          HIGHMARK MEDICARE SERVICES COMMENTS ....................................................5 


APPENDIXES

          A—INAPPROPRIATE HIGH-DOLLAR PAYMENTS

          B—HIGHMARK MEDICARE SERVICES COMMENTS




                                                                   iii
                                             INTRODUCTION 


BACKGROUND 


Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Part B Carriers

Prior to October 1, 2005, section 1842(a) of the Act authorized CMS to contract with carriers to
process and pay Medicare Part B claims submitted by physicians and medical suppliers
(providers). 1 Carriers also review provider records to ensure proper payment and assist in
applying safeguards against unnecessary utilization of services. To process providers’ claims,
carriers currently use the Medicare Multi-Carrier Claims System and CMS’s Common Working
File. These systems can detect certain improper payments during prepayment validation.

CMS guidance requires providers to bill accurately and to report units of service as the number
of times that a service or procedure was performed. During calendar years (CY) 2003–05,
providers nationwide submitted approximately 2.3 billion claims to carriers. Of these,
29,022 claims resulted in payments of $10,000 or more (high-dollar payments). We consider
such claims to be at high risk for overpayment.

Highmark Medicare Services

Highmark Medicare Services (Highmark), a subsidiary of Highmark Incorporated, was the
Medicare Part B carrier for Pennsylvania. 2 Highmark used the Medicare Multi-Carrier Claims
System to process claims. During CYs 2003–05, Highmark processed more than 101 million
Part B claims for Pennsylvania, 801 of which resulted in high-dollar payments.

“Medically Unlikely Edits”

In January 2007, after our audit period, CMS required carriers to implement units-of-service
edits referred to as “medically unlikely edits.” These edits are designed to detect and deny
unlikely Medicare claims on a prepayment basis. According to the “Medicare Program Integrity
Manual,” Pub. No. 100-08, Transmittal 178, Change Request 5402, a ”medically unlikely edit”
tests claim lines for the same beneficiary, procedure code, date of service, and billing provider
against a specified number of units of service. Carriers must deny the entire claim line when the
units of service billed exceed the specified number.


1
 The Medicare Modernization Act of 2003, P.L. No. 108-173, which became effective on October 1, 2005, amended
certain sections of the Act, including section 1842(a), to require that Medicare administrative contractors replace
carriers and fiscal intermediaries by October 2011.

2
 Highmark Medicare Services has offices in Camp Hill, Pittsburgh, Williamsport, and Fort Washington,
Pennsylvania, and Timonium, Maryland.


                                                        1

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Highmark’s high-dollar payments as the Medicare
Part B carrier for Pennsylvania were appropriate.

Scope

We reviewed the claim histories for the 801 high-dollar payments totaling $18,876,409 that
Highmark processed during CYs 2003–05 and selected 311 payments totaling $6,625,262 for
more detailed review. 3

We limited our review of Highmark’s internal controls to those applicable to the 801 claims
because our objective did not require an understanding of all internal controls over the
submission and processing of claims. Our review allowed us to establish reasonable assurance
of the authenticity and accuracy of the data obtained from the National Claims History file, but
we did not assess the completeness of the file.

We conducted our audit from August through December 2007 and May through October 2008.

Methodology

To accomplish our objectives, we:

    •	 reviewed applicable Medicare laws and regulations,

    •	 used CMS’s National Claims History file to identify Medicare Part B claims with 

       high-dollar payments, 


    •	 reviewed available Common Working File data for claims with high-dollar payments to
       determine whether the claims had been canceled and superseded by revised claims or
       whether the payments remained outstanding at the time of our audit,

    •	 analyzed Common Working File data for canceled claims for which revised claims had
       been submitted to determine whether the initial claims were overpayments, and

    •	 selected a judgmental sample of 311 of 801 high-dollar payments for detailed review.

Our sample included 23 payments for which Highmark had made an adjustment to a previous
overpayment. From the remaining 778 high-dollar payments we selected a judgmental sample of
288 payments that included payments for all 138 payments submitted by 31 providers and a



3
 When the Common Working File history was not available due to the age of the claim, we obtained a claim history
from Highmark that contained comparable information.


                                                       2

representative sample of 150 payments from the remaining 640 payments from 7 providers who
had each submitted from 40 to 309 claims.

       •	 For the 23 adjusted payments totaling $883,489, we contacted Highmark to determine
          whether providers refunded overpayments that were identified in the Common Working
          File.

       •	 For the 288 payments totaling $5,781,992, we contacted the providers to determine
          whether high-dollar claims were billed correctly and, if not, why the claims were billed
          incorrectly.

       •	 We coordinated our claim review, including the calculation of any overpayments, with
          Highmark.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objectives.

                                  FINDINGS AND RECOMMENDATIONS

Two hundred sixty-two of 311 high-dollar payments Highmark made as the carrier for
Pennsylvania were appropriate, and Highmark was reviewing 1 additional payment at the time of
our audit. 4 However, Highmark overpaid $482,295 for 48 payments to 16 providers. Seven
providers refunded $340,823 for 27 of the overpayments prior to our audit. Many of these
overpayments were related to manually processed claims for hemophilia drugs. Seven providers
refunded $100,896 in overpayments for 16 of the overpayments as a result of our audit. 5 Three
providers had not refunded $40,576 in overpayments for five claims at the time of our audit.

Highmark made the overpayments because 13 providers billed Highmark for the incorrect
number of units of service and one of these providers billed Highmark for the wrong services for
the administration of drugs. Also, Highmark used the incorrect quantity when it manually
calculated the payment for certain drugs on 22 claims and used incorrect rates to pay for drugs
on 2 claims. In addition, the Medicare claim processing systems did not have sufficient edits in
place during CYs 2003–05 to detect and prevent payments for these types of erroneous claims.

MEDICARE REQUIREMENTS

The CMS “Carriers Manual,” Pub. No. 14, part 2, § 5261.1, requires that carriers accurately
process claims in accordance with Medicare laws, regulations, and instructions. Section 5261.3

4
 Highmark and the provider were reviewing one high-dollar payment but had not yet adjudicated the final payment
amount. Because the claim had been under review for an extended period of time and the final payment amount was
not determined, we did not include the payment in our review.
5
    One of these providers also refunded overpayments prior to the audit.


                                                            3

of the manual requires carriers to effectively and continually analyze “data that identifies
aberrancies, emerging trends and areas of potential abuse, overutilization or inappropriate care,
and . . . on areas where the trust fund is most at risk, i.e., highest volume and/or highest dollar
codes.”

INAPPROPRIATE HIGH-DOLLAR PAYMENTS

Highmark overpaid providers $482,295 for 48 payments, including 24 payments for incorrect
units or services claimed by the providers and 24 payments calculated by Highmark using
incorrect quantities or payment rates. (See Appendix A for details.)

Excessive Units or Incorrect Services Billed

For 19 of the 48 overpayments, totaling $228,791, 13 providers incorrectly billed Highmark for
the incorrect number of units of service. For 17 of these overpayments, providers submitted
claims for quantities of drugs or services that were greater than provided. For two of the
overpayments, the providers’ medical billing company submitted claims for units of intensity
modulated radiation therapy that were significantly greater than the number actually performed.
As a result, Highmark paid the providers $273,884 instead of $45,093. Providers refunded
$92,217 in overpayments to Highmark prior to our audit and $100,678 in overpayments as a
result of our audit. Providers had not refunded $35,896 in overpayments for three claims at the
time of our audit.

For 5 of the 48 overpayments, totaling $218, 1 of the 13 providers incorrectly billed Highmark
for the wrong services for the administration of drugs. As a result Highmark paid the provider
$291 when it should have paid $73 resulting in overpayments totaling $218. The provider
refunded $218 in overpayments as a result of our audit.

The providers attributed the incorrectly billed units and services to clerical errors made by its
billing staff.

Incorrect Quantities or Payment Rates

For 22 of the 48 overpayments, totaling $234,132, Highmark used incorrect quantities to pay for
three drugs: octreotide, Factor VIIa and Factor VIII. For two of these drugs, which represented
almost all of the error, Highmark used the incorrect quantity when it manually calculated the
payments. Highmark’s automated processing system could not process claims with the large
numeric quantities required for these drugs. Highmark incorrectly calculated the quantities when
it manually divided the single claims into multiple claims. As a result, Highmark paid the
providers $795,579 instead of $561,447, resulting in overpayments totaling $234,132. Providers
refunded $229,452 in overpayments prior our audit. Providers had not refunded $4,680 in
overpayments for two claims at the time of our audit.

For 2 of the 48 overpayments, totaling $19,154, Highmark used incorrect rates to pay for two
different hemophilia drugs—Factors VIII, and IX. Highmark calculated the payment for these
claims manually because the carrier automated processing system was unable to process claims



                                                  4

with the large numeric quantities required for these drugs. During the manual processing, the
incorrect payment rates were used for the drugs provided. As a result, Highmark paid the
providers $57,504 instead of $38,350, resulting in overpayments totaling $19,154. Providers
refunded the full overpayment amount to Highmark prior to our audit.

Highmark attributed the overpayments to clerical errors made during the manual payment
process.

STATUS OF OVERPAYMENTS

For the 48 overpayments totaling $482,295 made by Highmark to 16 providers, 7 providers
refunded $340,823 for 27 of the overpayments prior to our audit. Most of those overpayments
were related to manually processing hemophilia drugs. Seven providers refunded $100,896 in
overpayments for 16 of the overpayments, as a result of our audit. (One of these seven providers
also refunded overpayments prior to the audit.) Three providers had not refunded $40,576 in
overpayments for five claims at the time of our audit.

INSUFFICIENT PREPAYMENT CONTROLS

During CYs 2003–05, Highmark, the Medicare Multi-Carrier Claims System, and the CMS
Common Working File did not have sufficient prepayment controls to detect and prevent
inappropriate payments resulting from claims for excessive units of service or claims processed
using the wrong payment rate. Instead, CMS relied on providers to notify carriers of
overpayments and on beneficiaries to review their “Medicare Summary Notice” and disclose any
provider overpayments. 6

RECOMMENDATIONS

We recommend that Highmark:

    •	 recover the $40,576 in overpayments and

    •	 consider identifying and recovering any additional overpayments made to providers for
       high-dollar Part B claims paid after CY 2005.


HIGHMARK MEDICARE SERVICES COMMENTS

In comments on our draft report, Highmark stated that it concurred with our first
recommendation and initiated activity to recover the $40,576 in identified overpayments but that
it did not believe it necessary to implement a special review of high dollar claims at this time.
Highmark’s comments are included as Appendix B.


6
 The carrier sends a “Medicare Summary Notice” to the beneficiary for each claim submitted by the provider for
Part B services on a quarterly basis. The notice explains the services billed, the approved amount, the Medicare
payment, and the amount the beneficiary may be billed.


                                                         5

APPENDIXES
 

                                                                                                                       lIIGIl-OOI.L,\R P,\ nID,S


                                                                        PROVlln:R SUB.\IlTIW <:1.A1M TO IlIGIL\IARJ..: wnll rm: I;>;<:ORRECT QU,\:'Trry
  Pro"ider                                                                                     Units                                         Amount                                                          AnlOUnl R.rundr<l
 O~irn      11'0.                           St"i« IIUIr<I                           11m...             l'.rfomK'<l                   Void           Corrtti'"         O,..rpa~'m.nt         Priorto,\lMIit     [)urin~   Audit     1'101 R.rundr<l
  ,\ 1&-758           Radiation Th..npy                                                       61                      I                $31.244             S,,"               SJO.740             SJO.740
  IJ 1&-676
  <: 16-579
  CI&-587
                      Radiation 1....'r1lp),
                      1k>cm,"1
                      P~l1lidro...u~   l)isodium
                                                                                              ....
                                                                                              ~

                                                                                                       Unkn(>I\n
                                                                                                                      S


                                                                                                                      2
                                                                                                                                        15.197
                                                                                                                                        IS.761
                                                                                                                                        11.418
                                                                                                                                                           2,520


                                                                                                                                                             J8I
                                                                                                                                                                               22,677
                                                                                                                                                                                1~.761

                                                                                                                                                                                11.037
                                                                                                                                                                                                    22,677
                                                                                                                                                                                                                                            1S.761
                                                                                                                                                                                                                                            11.037
  C 1&-775            Ch..'1llOllKTaPl'                                                       80                      I                     9.213            liS                9.098                                                        9.098
  l)   16-311         P,'glligrastim                                                            6                     I                 13.452             2,242                IUIO                                     11.210
  o 16-510            o..Th,olide                                                            301                     J<I                17.118             1.706                lUll                                     15.412
  E 16-UJ
  •. 16-6ll1
  (; 1&-716
                      fual;pl31in
                      Doxorobicin Hydrochloride                                               ..
                                                                                              16                      2
                                                                                                                      6
                                                                                                                                        24.ISO
                                                                                                                                        18.887
                                                                                                                                                           3.022
                                                                                                                                                           1.889
                                                                                                                                                                               21.158
                                                                                                                                                                               16.998
                                                                                                                                                                                                                         21.1 S8
                                                                                                                                                                                                                         16.998
                                                                                                                                                                                                                         15.(l4S
  II 16-4S7
                      Folwslranl
                      ~lcd;cal   Consult.lioo
                                                                                             ""
                                                                                              9l
                                                                                                                     10
                                                                                                                      I
                                                                                                                                        15,672
                                                                                                                                        13,840
                                                                                                                                                             627
                                                                                                                                                             III
                                                                                                                                                                               lS,Q-IS
                                                                                                                                                                               13.689               13,689

  • 16-362
  1 16-107
                      Pcn1QOiUl;n
                      Oflicc Visil (not reimbursable)
                                                                                               •I
                                                                                                                      I
                                                                                                                      ,
                                                                                                                                        12.330
                                                                                                                                               IS
                                                                                                                                                           1.541
                                                                                                                                                                 ,
                                                                                                                                                                                10.789
                                                                                                                                                                                       IS
                                                                                                                                                                                                                         10.789
                                                                                                                                                                                                                             II
  1 16·423            OffICe Visil (not reimbursable)                                           I                     ,                        16                ,                     16                                    16


                                                                                                                      ,
                                                                                                                                                           2,,",
  1 1&-718
  J 16_582
                      Oxalipl.lin
                      h.loalion & ,\I",,"g<n1<'l1t
                                                                                             6~



                                                                                             '"
                                                                                                                  JOO                       4.433
                                                                                                                                        12.900                   ,               2.387
                                                                                                                                                                                12.900              12.900
                                                                                                                                                                                                                          2.387


  J..: 16-714         [).rt":poclill Air.                                                    soo                     80                 IU68               1.3S7                12.211              12.211
  L 1&-715
 M 16_114
                      l.euprolide
                      FildOf VllI                                                       24.038
                                                                                              J<I
                                                                                                             24,024
                                                                                                                      8                 10.410
                                                                                                                                        24.230
                                                                                                                                      5273,884
                                                                                                                                                           2.776
                                                                                                                                                          24.216
                                                                                                                                                                                 7.634

                                                                                                                                                                                       "                                     ..
                                                                                                                                                                                                                          7.634



       "                                                                                                                                                 545.093             5228.79'             592J.7            5100.678              Dl,896




                                                                  PIW"IDt:R SUII.\l1TIW CI.A[~I TO               1ll(;1I~l,\ItJ..:   \IUll Tm: 1,'\CORItECT SER\'lct: (:00.:
  I'ro,'id.r                                                                           I'rottdo... <:0<1.                                    A"HHUlt                                                         A",oo"t Ittfundr<l
 l1airn 11'0.                               St"i« IIUIt<l                           IIUItd           Performttl·                     V~id           Cllrrttied        O,..rpa~'n..nt        Priorto,\l>dit     I)urin~   Audit     1'101 R.runded
  116-m               Infusion Th..npylEnlu'lioo & ~lanag..'IlltIl1              90781/99211         907SO/S:\R                              "7              SI6                  ~I                                        g,
  1 16-119            Infusion Th..'r1lp)'IEnlualioo & .\lan'!:,""""1            90781/99211         907SO/S:\R
                                                                                                                                              ..
                                                                                                                                              4.                 16                    3l                                    31




                                                                                                                                                                                                                                                     APPENDIX A
  • 16-llO            Infusion l ....np)'IEulu.tioo & \lanagem......l            90781/99211         907SO/S:\R                                                  16                    3l                                    32




                                                                                                                                                                                                                                                       Page 1 of 2
                      Infusion l ....npyIE,.,lu.lioo & Managem..'1l1                90781                90780                                J<I
  • 16-1-IJ
  1 16-502                                                                      00347 I G0348 00359/00360
                                                                                                                                                                 "                 "                                         "
        ,             Infusion ThcnpylEnlu'lioo & Manag..'Illo.'1l1
                                                                                                                                              "
                                                                                                                                            S291             S7J
                                                                                                                                                                 0
                                                                                                                                                                                   "
                                                                                                                                                                                 S21S                   SO                SUS"                  SO




·S~R·    St...·w /I·oIll~llllbul'S:.lble.
                                                                                                    IllGII·J)()L1,,\R p,\nIEl'ITS


                                                    lItGII1'IIARI.: PROC.:.ssW rm: CI...\IM MA:-"U,\U.\' IJSI:>iG A:-" I:>iCORR.:l'Y QU,\~TIT\'
Pro.id~r                                                                     Unitl                                   ,,,,",",,                                                    AnlOUnt Rdnndr<l
Oaim ~o.                           s"n"'" 1IU1«1                   Paid              Cnr.....,.«1             Paid           CnrTtdtd          Owrp")mtnl        Prior In Audit     [)unn:Audit      ;,'" R.rund«l
M 16-221      FactorVllJ                                               23,384               24.480              S21531           S20.602                 1929             1929
M 16-397      Factor VII1                                              13.660               13.080               10.899              9.1 Q.t             1,795            1,793
M 16-3'.1ll   Factor VIII                                              17.160               13,080               11,9~~              9.1 Q.t             2.840            2.840
N 16-150      Factor VlIa· Splil Claim #la                                38.4                 32.0              31,636            ~3.046               8.610             8.610
N 16·151      F:>cIor Vlb· SplilClaim #Ib                                 38.4                 32.0              31.636            43.(1.16             8.610             8.610
N 16-111      1':1<.1", Vila· Splil Claim #1.                              23.3                13.0              31,400             17,487              13.913           13.913
N 16-172      Fact", VII.· Spin CI.im #Id                                  3'-3                33.0              79.707            44.391              33.316            3S.316
N 16·173      ~':>cI'"   Vila· Spin CI.im #1.                             33.9                 20.0              ~8.J07             26.904             21.403            21.403
N 16-178      F:>cI'" Vlb· SplilClaim lr2a                                41.7                 29.2              4O.9~8             28.664              12.28~           12.284
N 16-180      F:I<.1or Vila· Splil Claim Ir2b                             40.2                 28.3              39.778             27.8~5              11.933           11.933
N 16-181      Fact", VII.· Spin CI.im 1r2.                                39.3                 27..1             38.608             21.026              lU82             11,382
N 16-182      ~':>cI'"   Vila· Spin CI.im Ir2d                            38.1                 26.7              37.438             26.207              11.231           11.231
N 16-183      ~':>cI'"   Vlb· Spin Claim 112.                             36.'                 25.8              36.268             23,388              10.880           10.880
N 16-ISl      Factor \~Ia . Splil Claim Ir2f                              34.3                 2~.0              33.694             23.586              10.108           10.108
N 16-179      Fact", VIt.· Splil CI.im #3.                                41,7                 29.2              40.9~8             28.664              12,28~           12.28~

N 16-185      Fact", Vila· Spin CI.im #3b                                 40'                  28.3              39.778             21,8~5              11.933           11.933
1\' 16-186    F:>cI'" Vlb· Spin Claim #3c                                 39.3                 27,5              38.608             27.026              11.382           11582
N 16-187      Factor VlIa . Splil Claim #3d                               38.1                 26.7              37.438             26.207              11.231           11.231
N 16-lllll    Fact", VlIa· Splil CI.im #3<                                36.'                 25.8              36,268             lS.388              10.880           10.880
N 16-ll1'9    Fact", VII.· Spin CI.im #3f                                 34.3                 21.0              33.69~             24.169              9.121             9.125
o   16-725    F:>cI",VllJ                                            318.000                31.800               24.931             22.133              2.798                                                  2.798
PI6-5J6       0.1"'<>Ii&O:                                                1.200                 120              10.080              8.198               1.882                                                 1.882
    12                                                                                                        S7?5,.~79          S56MKI              S233,1~9         S228,469                 S<l            S~,680




                                                      IllGIlMARI.: PRoc.:sst:ll Tin: CLAIM MANlIALI,\' USING A.'·I:-iCORR.:cr R,\H:
Pm.1Mr                                                                       R"I~                                    ArnOOJlI                                                     AmoWlt Rtfnndl'd




                                                                                                                                                                                                                        APPENDIX A
OalmNo.                            s"n"'" 8illtcl                  hid               CnrN'tltcl               P••            Cnnwtl'd          Q\·~rp.)'m.nl     Prior In Audit     I)urln!,\udlt    N'"   R~rundtcl




                                                                                                                                                                                                                          Page 2 of 2 

N 16-124      hcrorlX                                                     1.870              0.88~              $36.263          $17.1~2              $19.121           $19.121
M l6-m        ~':>cIor   V1I1                                             1.034               1.032              21,2~1             21.208                 JJ                JJ
                                                                                                                $57~'jQ.t        $J8JSO               SI9,1S4           S19.1S4                S<l                S<l




                                                                                                             1,127,258           6-15,946            481,312
    '"                                                                                                                                                                 339.840           '00,,",             40.576
                                                                                            APPENDIX B
                                                                                              Page 1 of 3




                                           MEDICJ\RE SERVICES
                                                 tsO 900'1:2000 camfl[D




Stephen Virbitsky                                                         February 9,2009
Regional Inspector General for Audit Services
Office of Audit Services, Region III
Public Ledger Building, Suite 316
150 S. Independence Mall West
Philadelphia, PA 19106-3499

DIG Report Number: A-G3-G7-G016


Dear Mr. Virbitsky:

Attached is the Highmark Medicare Services' response to your request for comments on the draft report
entitled, "Review of High-Dollar Payments for Pennsylvania Medicare Part B Claims Processed by Highmark
Medicare Services for the Period January 1, 2003 through December 31, 2005."

Please do not hesitate to contact me at (717) 302-4410 if you have any questions.



Sincerely,




:i
&     /f
;:; _ '<Uj'Uo

 . :James Bylotas
                 'I'  ~-
                       .
                            <?


Director, Quality and Performance Management


                                                CC: Bernard Siegel




                                                 P.O. Boy. 8900139
                                                Camp Hill. P,6. 17089
                                         www.highmarkmedicareservices.com
                                                                                APPENDIX B
                                                                                  Page 2 of 3




              Medicare Services
                   Response toOIGAudit A-03-07-0016

I. Inappropriate High-Dollar Payments/Status of Overpayi'nEmts

  "Highmark overpaid providers $482,295 for 48 payments, including 24 paymerits for·
  incorrect units or services claimed by the providers and 24 payments calculated by
  Highmark using incorrect quantities or payment rates. For the 48 overpayments made
  by Highmark to 16 providers, 7 providers refunded $340,823 for 27 of the overpayments
  prior toouraudit. Most of those overpayments were related to manually processing
  hemophilia drugs. Seven providers refunded $100,896 in overpayments for 16 of the·
  overpayments, as a result of our audit. (One of these seven providers also refunded
  overpayments prior to the audit.) Three providers had not refunded $40,576 in      .
. overpayments for five claims at the time of our audit."

 Recommendation

 "We recommend Highmark recover the $40,576 in overpayments."

 Highmark Medicare Services Response

 We agree with the recommendation and haveiriitiated activity    to recover the $40,576 in
 overpayments.          -.

 Recommendation

 "Consider identifying and recovering any additional overpayments made to providers for
 high-dollar Part Bclaims paid after CY2005."                                         .

 HighmarkMedicare S~rvices Response

 Highmark Medicare Services Informatics Team conducts proactive data analysis on an
 ongoing basis to determine unusual patterns and discover issues of risk for the
 Medicare program and uses this information to direct Medical Review resources. As
 part of this larger analytic effort, one specific approach (called Six-Sigma Analysis) that
 is used for Part B services is to monitor the number of services that are billed each
 month for each procedure code and highlight those which have an abnormal change in
 any given month based on the usual month-to-month variability that is seen in the code.
 Any large deviation in the number of services would trigger a review by our data
 analysts. While this is slightly different than monitoring for high-dollar claims, the
 relationship between services and dollars is clear. One advantage of this approach is
 that services are not subject to provisions such as deductible and coinsurance which
 can have an effect on the variation on any dollar based variable.

 In fact, using this very analytic technique, Highmark Medicare Services has routinely
 identified unusual and high dollar claims for hemophilia drugs. However, since
 hemophilia drugs are already subject to a 100% pre-pay review, Medical Review
 resources are usually targeted for other issues that are in line with the MR strategy.
                                                                              APPENDIX B
                                                                                Page 3 of 3 





      GIG review of 311 Claims (worth $6,625.626) found that at the time of their review
 there were $141,427 dollars that had not been appropriately accounted. This
 corresponds to a dollar based error rate of about 2%($141 ,4271 $6,625,626= 2.1%) for
 high dollar claims, while error rates for E&M services routinely are in the range of 6% -
 8% or more (according to CERT data). Additionally, there are typically only a few
 hundred high-dollar claims per year while there are tens of millions of E&M services
 billed annually.

 Given Highmark Medicare Services succ:ess at detecting the high dollar claim issues in
 the past (especially for hemophilia), the lowerrorrateassociatedwith thesedollars vis-
 a-vis E&M services, and the rt3cent adventofMUEs(as notedQY the OIG) aswell as
 CUEs (which were not available until recently), we do not believe it is necessary to
 implement a special review of high dollar claims atthistime. However, Highmark
 Medicare Services will incorporate the GIG findings into its prioritization scale when
 issues related to hemophilia drugs are discovered in the future using current
 techniques.

II. Insufficient Prepayment Controls

 During CYs 2003-05, Highmark, the Medicare Multi-Carrier Claims System, and the
 CMS Common Working File did nothgvesufficient prepayment controls to detect and
 prevent inappropriate payments resulting from claims for excessive units of service or
 claims processed using the wrong payment rate. Instead, CMS relied on providers to
 notify carriers of overpayments and on beneficiaries to review their "Medicare Summary
 Notice" and disclose any provider overpayments.

 Highmark Medicare Services Response
 Highmark Medicare Services has implemented a Medically Unlikely Edit (MUE) to
 suspend potentially excessive Medicare Payments for prepayment review as required
 by CMS. We have also established our own "Clinically Unlikely Edits (CUE). In
 addition, we monitor the number of units billed using postpayment data analysis.
